  Office of Inspector General
      Audit Report


 FRA NEEDS TO EXPAND ITS GUIDANCE
ON HIGH SPEED RAIL PROJECT VIABILITY
           ASSESSMENTS

        Federal Railroad Administration

         Report Number: CR-2012-083
         Date Issued: March 28, 2012
           U.S. Department of
                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: FRA Needs to Expand Its Guidance on           Date:       March 28, 2012
           High Speed Rail Project Viability Assessments
           Federal Railroad Administration
           Report Number: CR-2012-083

  From:    Mitchell Behm                                         Reply to
                                                                 Attn. of:   JA-50
           Assistant Inspector General for Rail, Maritime and
             Economic Analysis

    To:    Federal Railroad Administrator

           The Passenger Rail Investment and Improvement Act of 2008 1 (PRIIA) directed
           the Secretary to establish a high-speed and intercity passenger rail (HSIPR)
           program, and authorized approximately $4 billion over a 5-year period for HSIPR
           investments. The statute allowed the Secretary 2 years to develop program rules.
           However, four months after PRIIA’s enactment, the American Recovery and
           Reinvestment Act of 2009 2 (ARRA) appropriated another $8 billion for HSIPR to
           be allocated under significantly compressed timelines, and included a requirement
           to develop interim program rules within 120 days of ARRA’s passage.

           The Federal Railroad Administration (FRA) is responsible for implementing the
           HSIPR program. As part of this responsibility, the Agency assesses the economic
           viability of each proposed HSIPR project and decides which projects to fund. The
           Administration’s Fiscal Year 2013 budget allocates $47 billion for HSIPR over six
           years. Consequently, potential grantees will need to develop their HSIPR projects’
           viability analyses if they are to justify additional funding needs.

           We initiated this audit to (1) identify key focus areas for analyses of HSIPR
           project economic viability, and (2) assess FRA’s requirements and guidance for
           HSIPR grant applicants on the information they must provide to FRA on project
           viability.



           1
               P.L. No.110-432, Div. B.
           2
               P.L. No. 111-5.
                                                                                                                  2


To conduct our audit, we reviewed FRA’s requirements and guidance, met with
FRA officials, and worked with consultants at Steer Davies Gleave and Charles
River Associates, noted experts in HSIPR economic viability analyses. Our work
with the consultants included guiding the development and organizational
framework of the analysis, and reviewing and commenting on the same. Steer
Davies Gleave and Charles River Associates conducted a review of HSIPR project
forecasting practices in the U.S. and around the world. They relied upon the results
of this review, along with their extensive knowledge of the preparation, review,
and development of guidance for HSIPR viability analyses to create the
documents that support this report. We conducted our audit from June 2010
through December 2011 in accordance with generally accepted Government
auditing standards. Exhibit A details our scope and methodology.

BACKGROUND

Economic viability analyses evolve as a project proposal proceeds through the
development process. For instance, a State agency applying for rail funding might
conduct a preliminary analysis to determine which among a set of project
alternatives would likely succeed. Preliminary viability analyses require relatively
little time and funding, and produce results with a relatively large margin of error.
For alternatives that clear the preliminary analysis hurdle, the agency could
conduct further viability analyses, each more accurate, detailed and resource
intensive than the previous one.

In every analysis phase, a HSIPR project proposal must include each of the
following three main economic viability analysis components: 3

    1. Revenue forecast. The revenue forecast process involves multiple steps that
       focus primarily on the development of an underlying ridership forecast. First,
       analysts collect and compile data on current travel patterns into files known
       as “trip tables.” They then apply growth factors, 4 or similar methods, to the
       trip tables to obtain estimates of future travel in the absence of the proposed
       HSIPR service. After these calculations, they develop a model—known as a
       mode choice model—to predict the percentage of future travelers expected to
       divert to the new HSIPR service. Analysts develop these mode choice models
       from data on observed traveler behavior or traveler responses to surveys.
       Analysts also estimate induced travel—trips that would only occur if the new
       HSIPR service becomes available. Finally, they estimate the expected fare
       revenue based on the number of diverted and induced travelers forecast to
       use the new service.

3
    Federal Register: Vol. 75. No. 126, Thursday, July 1, 2010; and Vol. 76, No. 51, Wednesday, March 16, 2011.
4
    A growth factor determines a quantity’s rate of increase over time.
                                                                                                                        3


    2. Public benefits valuations. The public benefits valuation process requires
       two steps: quantifying project impacts—such as travel time savings and
       safety improvements—on travelers and the service area’s general population
       and monetizing or converting those impacts to dollar values. A project’s
       public benefits assessment depends heavily on the forecasts of the number of
       riders and of the values those riders place on time. The revenue forecasting
       process generates both of these. HSIPR project public benefits fall into three
       broad categories: (1) user benefits, including reductions in travel expenses,
       lower in-vehicle travel time, less time spent waiting, and reductions in the
       time spent traveling to and from the travel mode terminal, such as a train
       station or airport; 5 (2) non-user benefits, including reduced automobile
       congestion and costs, increased highway speeds, reduced auto emissions, and
       improved transportation safety; and (3) wider economic impacts, including
       businesses’ access to larger labor pools and increased productivity.

    3. Operations & Maintenance (O&M) cost estimations. 6 O&M cost
       estimates depend on HSIPR service characteristics, such as the frequency of
       service, the stations served, trip times, and how the service will be delivered.
       Examples of service delivery decisions include whether service providers
       will purchase or lease trains, how they will maintain trains, how they will sell
       tickets and dispatch trains, and who will manage the railroad. 7 Total O&M
       costs fall into three categories: (1) O&M costs for infrastructure, including
       track, bridges and facilities; (2) O&M costs for equipment, including trains;
       and (3) energy costs. Each category typically accounts for 20 to 30 percent of
       total operating costs. Staff to operate trains and stations and to provide
       general and administrative services account for roughly 10 percent each.
       However, cost shares can vary considerably with individual system
       specifications. For example, shares accounted for by energy costs vary with
       train speed, terrain traveled, and number of station stops.

RESULTS IN BRIEF

Relying on the consultants’ research and guidance, we identified three key focus
areas in assessing project viability.

• The first focus area is the set of elements with the greatest impact on the three
  analysis components—revenue forecasts, public benefits valuations, and O&M

5
    A reduction in the time spent traveling to the travel mode terminal would occur, for example, for a traveler diverting
    to the new HSIPR service from airline travel if the time required to reach the train station is less than the time
    required to reach the airport
6
    Capital or construction costs also play an important role in project valuation, but because the capital cost estimation
    process tends to be project-specific, we do not address it in this report.
7
    The railroad manager owns and is responsible for the operation and maintenance of railroad infrastructure.
                                                                                                                  4


      cost estimates. Current trip tracking and projections of future travel in the
      absence of a HSIPR option provide the foundation for HSIPR ridership
      projections. Along with models that estimate how many travelers would
      choose the HSIPR option—called mode choice models—they exert the greatest
      influence on revenue forecasts. Model structure and survey data used in mode
      choice model development, in turn, significantly affect model results.
      Passengers’ travel time savings generally make up the bulk of public benefits
      associated with HSIPR projects. Environmental benefits and impacts on other
      modes, such as congestion reduction, contribute to public benefits, but to a
      lesser extent. The number of annual train-miles and train-hours operated, and
      the number and size of stations served are the most important drivers of
      operating costs

• The second focus area is the level of analytical detail required at the
  preliminary, intermediate, and final phases in the development of a HSIPR
  proposal. 8 Furthermore, the tradeoffs made between the amounts of resources
  employed to conduct the analysis and accuracy of analysis results also depend
  on proposal phase. Preliminary phase revenue analyses tend to rely on
  previously developed data and models to quickly assess multiple service
  alternatives. Preliminary phase public benefits analyses identify “show
  stoppers,” or critical components that may render a project infeasible or cause
  costs to greatly exceed benefits, while preliminary O&M cost estimates rely
  mostly on values established in other analyses. Intermediate phase analyses, in
  comparison, examine narrower sets of potential service alternatives. They
  supplement information from other HSIPR analyses with more project-specific
  data and models. Final phase analyses often study one service alternative in
  detail, primarily using project-specific data and models. In this phase, ridership
  and revenue forecasts require extensive data on traveler preferences, while
  O&M cost estimates require the use of train service simulations and staffing
  models. Final phase analyses also determine the sensitivity of estimates to
  changes in critical assumptions and data values.

• The third focus area is the set of issues central to methodological soundness.
  These differ by analysis component and project development phase. Trip table
  development is central to assessments of ridership and revenue forecast
  reliability, but the development process and, consequently, key steps to
  monitor, differ according to study phase. The validity of public benefits
  valuations in all analysis phases depends upon avoidance of double-counting,
  which can occur when benefit categories overlap. Measures required to
  safeguard the soundness of cost estimates include ensuring analysts understand
  the services to be provided in preliminary phase studies and appropriately

8
    This particular differentiation of proposal phases is introduced to facilitate discussion; it is not meant to be
    prescriptive.
                                                                                                                  5


      quantify risks in final phase analyses. In all analysis phases, analysts and
      reviewers must check assumptions made in cost estimates and ridership and
      revenue forecasts for consistency.
FRA has established only minimal requirements and guidance on the information
HSIPR grant applicants must provide to FRA on project viability. The guidance
states that FRA looks at the “quality and reasonableness of revenue and operating
and maintenance forecasts [and] the reasonableness of estimates for user and non-
user benefits.” 9 However, the guidance contains no information on what
constitutes sound forecasts, valuations, and estimates. Furthermore, the guidance
makes no reference to many of the complex issues that need to be addressed in the
preparation and review of HSIPR project viability analyses. As a result, it allows
for wide variation in the level of detail and methodologies used by grant applicants
in the preparation of revenue forecasts, benefits valuations, and cost estimates,
and, consequently, in the quality of project viability analyses, hampering FRA’s
proposal assessments.

We are recommending that FRA expand its guidance for HISPR grant applicants
to include information on the key areas of HSIPR forecasts, valuations, and
estimates.

THREE FOCUS AREAS ARE KEY TO SOUND PROJECT
VIABILITY ASSESSMENT

In our work with the expert consultants, we identified three key areas to focus on
in assessing project viability: (1) the elements with the greatest impact on the
components of the analyses—revenue forecasts, public benefits valuations, and
O&M cost estimates; (2) the level of analytical detail required for these
components at the preliminary, intermediate, and final phases in the development
of a HSIPR proposal; and (3) issues central to methodological soundness.

Certain Elements of Forecast, Valuation, and Estimation Processes
Affect Results More Than Others

Each component of a viability analysis for a proposed rail project includes
elements that affect results more heavily than others. Trip tables, which depend on
the data and growth rates used in their development, and mode choice models,
which depend on the methods and survey data used to construct them, have the
greatest impact on ridership and revenue forecasts. Travel time savings most
strongly affect public benefits valuations, while environmental benefits and
impacts on other modes, such as congestion reduction, have less influence. The

9
    Federal Register: Vol. 75. No. 126, Thursday, July 1, 2010; and Vol. 76, No. 51, Wednesday, March 16, 2011.
                                                                                     6


number of annual train-miles and train-hours operated, and number and size of
stations served have the greatest influence on operating cost estimates.

Trip Tables and Mode Choice Model Estimations Have the Greatest
Influence on Revenue Forecasts

Revenue forecasts’ accuracy depends heavily on trip tables’ quality, since all other
steps rely on these tables. The quality of auto trip tables particularly impacts the
accuracy of the underlying ridership forecasts because, typically, a large share of
potential HSIPR travelers is diverted from automobiles. Currently, there is no
standard source of information on intercity auto travel of sufficient detail and
quality for project-level forecasting. Given the large volumes of intercity auto
trips, errors in auto trip table preparation can result in significant discrepancies in
estimated HSIPR ridership and revenue numbers, even if only a small percentage
of auto travelers divert to rail. Similarly, trip table growth rates used to generate
projections of future travel demand—the potential sources of future HSIPR
ridership—also heavily influence revenue forecasts.

Mode choice model structure substantially impacts estimates of whether travelers
will choose the new HSIPR service over existing modes. There is no standard
model structure, and determination of the most suitable structure for a particular
study depends on the context. In addition, mode choice model estimates' reliability
depends heavily on the quality of data used in model construction. Data on service
characteristics and methods used to design and collect travel surveys greatly
influence model estimates of users’ value of time and willingness to pay for travel
services.

In contrast, induced travelers—those who would not travel without the new
high-speed rail services—usually account for only a small share of total HSIPR
ridership and revenue. Induced travel can be modeled directly, which requires the
development of a separate model, or calculated as a percentage of the estimated
diversions to HSIPR.

Travel Time Savings Heavily Influence Public Benefits Valuations

Travel time savings typically account for the largest share of public benefits
valuations. Travel time savings include reductions in waiting, time getting to and
from the travel mode, and in-vehicle travel times. The introduction of a high-speed
rail service may affect some or all of these. The monetary value of travel time
savings is calculated as the product of the number of each type of HSIPR traveler
                                                                                                                          7


with their value of time, 10 summed over every traveler type. The revenue forecast
process provides the inputs to this calculation.

Service quality also contributes significantly to user benefits when a project
provides additional capacity, as does safety valuation when significant diversions
from highways occur. Environmental benefits usually reach significant levels, but
tend to be smaller than other public benefits. Reductions in highway maintenance
and expansion costs due to diversion of travelers to high-speed rail also tend to
have smaller impacts on net public benefits valuations.

The Number of Annual Train-Miles and Train-Hours Operated Greatly
Influence O&M Cost Estimates

The number of annual train-miles and train-hours operated, and the number and
size of stations served have the greatest impact on O&M costs. These elements
determine the resources needed to provide the service, including the numbers of
trains, train crews, station staff, train inspections, spare components, and units of
energy required. Other elements such as on-board services and amenities assume
lesser importance.

Levels of Analytical Detail Vary According to Phase of Project
Proposal Development

The level of analytical detail appropriate for revenue forecasts, public benefit
valuations, and cost estimates varies according to the phase of HSIPR project
proposal development. From the preliminary to the final phase, revenue forecasts
narrow the set of alternatives considered and increase the level of detail at which
each alternative is examined. Public benefits valuations increase the categories of
benefits analyzed as the project proposal moves through development, producing
ever more detailed results. Operating cost estimates move from rough cost
identification in preliminary phases to complex modeling in final phases.

Revenue Forecasts Narrow the Set of Alternatives Considered Between
the Preliminary and Final Phase

In the preliminary phase of HSIPR proposal development, revenue forecasts assess
multiple service alternatives within short timelines and limited budgets. Generally,
these forecasts have insufficient scope to develop travel demand models from
scratch and, consequently, rely heavily on readily available models and data.
These forecasts also have sizeable margins of error.

10
     Different values of time may apply depending on some or all of the following trip characteristics: (1) mode, such as
     bus, train, air, or auto; (2) trip purpose, including business and leisure; and (3) trip length, such as local or long
     distance.
                                                                                    8



In the intermediate development phase, revenue forecasts combine readily
available and project-specific data and produce more accurate results than
preliminary forecasts. They also examine a narrower set of service alternatives.
Some primary data collection—including travel surveys in the study area—is
usually required in this phase. The analysis may involve large numbers of
assumptions but focuses on a smaller set of project alternatives.

A revenue forecast in the final phase of proposal development generally includes
extensive collection of project-specific data that focus on a single project
alternative. During this forecast process, analysts also collect original data on
traveler preferences, HSIPR service characteristics, and characteristics of
competing modes. These forecasts do not rely on third-party models and data
unless they are thoroughly reviewed for accuracy and applicability. The final
phase forecast process also identifies key risks and involves extensive sensitivity
analyses.

Public Benefits Valuations Expand the Categories of Benefits Analyzed
Between the Preliminary and Final Phase

Preliminary phase public benefits valuations balance each impact’s expected
importance with the resources spent to quantify and monetize it. They may base
impacts on previous analyses when appropriate. Importantly, preliminary
valuations identify “show stoppers”—critical components that may render a
project infeasible or cause costs to greatly exceed benefits. The level of analysis of
public benefits possible in this and all phases depends on the quality of the
ridership and revenue forecasts’ results.

Intermediate phase public benefits valuations focus on the benefit categories in
which the service alternatives under consideration are likely to produce
substantially different results. Consequently, these analyses primarily serve to
differentiate between alternatives. Intermediate phase valuations quantify benefits’
impacts based on project-specific analyses but may use evidence from other
similar projects to monetize them. Furthermore, they analyze and quantify critical
elements identified by previous analyses. They also calculate the value of user
benefits separately for business and leisure travelers.

Final phase analyses include project-specific parameters, such as the value of time,
as much as possible and test the sensitivity of results to variations in significant
assumptions and inputs. These valuations rely almost entirely on project-specific
values and assumptions. In this phase, it may be necessary to demonstrate that
certain benefits are not significant.
                                                                                                                   9


O&M Cost Estimations Move From Cost Identification in the Preliminary
Phase to Modeling in the Final Phase

O&M cost estimations in the preliminary phase of HSIPR project development
focus on quick, rough comparisons of the cost of each alternative using a
“top-down,” or high level approach. These estimations identify key metrics, such
as track miles, annual train miles and hours driven. Analysts often use these
metrics in combination with unit costs 11 from other studies to generate cost
estimates. Analysts also usually add a sizable contingency allowance, 12 40 to 50
percent, to cost estimates to account for the many uncertainties inevitably
associated with project specifications and cost components in this phase.

Intermediate phase cost estimations focus on increased accuracy for fewer
alternatives but still use a “top-down” approach. In this phase, analysts estimate
quantities of key resources—such as trains, train crews and energy—required to
meet ridership forecasts. Analysts also identify appropriately benchmarked unit
cost rates 13 and general and administrative costs for different categories, possibly
from other studies. Train specifications are more detailed than in the preliminary
phase, with trip times and turnarounds at terminus stations verified by modeling.
Contingency allowances in this phase range between 20 and 30 percent.

Final phase cost estimation often analyzes only one alternative and develops cost
estimates using an element-by-element or “bottom-up” approach based on a
complete railroad design plan. Analysts develop the railroad design plan from
timetable modeling and train service simulation. Consequently, it includes
accurate forecasts of the total amounts of miles and hours that a train operates in a
single year. To develop energy and labor cost estimates, analysts use models of
energy consumption, staff hours, and staff allocations. In addition, they fully
specify head office staff roles and numbers, and monetize other general and
administrative cost line items. Final phase labor costs represent salaries,
employers’ overhead, and the terms and conditions of each employee role and
grade. The selection of many unit cost rates may reflect discussions with suppliers,
such as train manufacturers, unions and energy suppliers, regarding likely contract
terms and conditions. The final phase contingency allowance drops to 10 to 20
percent. Further, the contingency allowance varies across cost categories and is
determined through identification and quantification of specific risks.




11
     A unit cost is the cost per unit of a key metric, such as track miles, annual train miles, or hours operated.
12
     A contingency allowance effectively provides a cushion to account for factors or risks that have yet to be fully
     specified.
13
     For example, standard rates for the salary of each category of staff or per mile train operating costs.
                                                                                   10


Certain Issues Are Central to Methodological Soundness

The issues important to the determination of methodological soundness of revenue
forecasts, public benefit valuations, and cost estimates vary by analysis component
and the different phases of proposal development. The accuracy of auto trip tables
is central to ridership and revenue forecast reliability, but the steps requiring
attention differ according to phase. The key concerns for sound public benefit
valuations are the same at each development phase, the most significant being the
avoidance of double-counting. Focus areas for accurate operating cost estimates
range from ensuring the analysis reflects a good understanding of the services to
be provided in the preliminary proposal phase to accurately quantifying risks in
the final phase. In all phases, assumptions about the service to be provided that
underlay operating cost estimates must be consistent with those made in the
revenue forecasts.

The Soundness of Trip Table and Mode Choice Model Development
Significantly Determine Revenue Forecast Reliability

The lack of a standard source for data on intercity automobile travel requires
analysts and reviewers to exercise particular care in developing and checking
automobile trip tables. For preliminary phase revenue forecasts, analysts typically
employ mode choice models developed in other studies. In addition, they often
assert the validity of values for particular factors, such as travelers’ time, derived
using those models in earlier studies, rather than statistically estimate values for
those factors from local data. Consequently, reviewers need to scrutinize the
model’s applicability to the intended study area.

Intermediate phase ridership and revenue forecasts use more project-specific
factors, while preserving the ability to efficiently assess multiple project
alternatives. Analysts need to trade off these opposing objectives efficiently to
produce forecasts that can adequately support the selection of a single option or a
small group of alternatives for final phase analysis.

The travel patterns portrayed in the trip tables need to make sense when
consolidated into aggregate travel numbers and compared with data from other
sources. Analysts should construct current-year trip tables, particularly for the
automobile mode, using primary data sources such as counts, surveys, or
anonymous vehicle or mobile phone tracking. For non-automotive trips, analysts
can use publicly available data, such as Bureau of Transportation Statistics data on
airline service. The design, execution, and analysis of any primary data collection
effort supporting either the trip tables or the development of the mode choice
model, especially travel surveys, require close attention. While a detailed review
of such efforts remains a task for subject matter experts, a generalist can check on
                                                                                                                  11


certain concerns. In particular, it is important to adequately sample market
segments and trip purposes and avoid language or images in survey instruments
that might bias responses. In addition, survey questions have to relate to
respondents’ ordinary travel experiences and avoid far-fetched and ill-defined
hypothetical choices.

Mode choice models used in the intermediate phase may combine original
statistical analyses of travel survey data with results from other studies. Model
estimates of the value of travelers’ time should correlate reasonably well with
local incomes and wage rates. Analysts and reviewers can assess the
reasonableness of the cost or time equivalents of the mode-specific constants 14 by
comparing them to results from other studies.

Assumptions about the comfort, time, and cost involved in getting to and from the
different travel modes in future years can significantly affect results, particularly
the relative values for rail and air if the analysis assumes substantial
improvements. Assumptions about future year automobile congestion levels can
also have significant impacts. The levels of service of competing modes—
automobile and air—need to reflect prevailing information, as obtained, for
example, from online trip planners or similar tools.

In the final analysis phase, the approaches used to develop current auto trip table
data and the growth factors used to develop future year trip tables require careful
consideration. Analysts should develop growth factors using location-specific
estimates of anticipated population and income expansion in the project service
area to the extent possible. In addition, analysts need to prepare detailed
explanations of the forecasting methodologies used.

While thorough examination of the statistical analyses used to develop mode
choice models from collected data requires technical expertise, non-specialists can
assess the care with which analysts have checked and corrected the data collected.
In this phase, the reasonableness of the model's estimates of travelers’ time values
for different types of travelers and trip purposes should again be determined using
locality-specific data, such as information on local wage rates. In addition, the
reasonableness of the monetary or time value of the mode specific constants also
requires reexamination. Reviewers should especially check study methodologies
and assumptions regarding future year levels of service by mode if the project is
projected to significantly reduce congestion on highways, airways, or other rail
facilities.


14
     Mode specific constants in mode choice models represent the average effect of all factors that influence the mode
     choice but are not otherwise included in the model.
                                                                                12


Double-Counting of Benefits and Use of Inconsistent Measurements
Undermine Validity of Public Benefit Valuations

Double-counting of public benefits and the use of inconsistent measurement
methods are common errors in all phases of benefit valuations. The likelihood of
double-counting increases when analysts include benefits whose proper use has
not been well-established, such as property value appreciation and employment
gains. HSIPR project-related property value appreciation, for example, partly
depends upon travel time reductions. However, analysts typically incorporate the
value of travel time savings in user benefits. Including both property appreciation
and the value of travel time savings in a benefits calculation would therefore
constitute double-counting.

The use of inconsistent measurement methods frequently occurs when analysts
monetize benefits. At that juncture, analysts must choose to use either market
values or resource costs. Market values are the prices paid in the marketplace.
Resource costs exclude elements, such as taxes, which do not reflect the true
economic costs of producing a good. Once the choice is made, analysts must
measure all benefits on the same basis.

Public benefits assessments need to capture any important benefits specific to the
project under consideration in addition to including benefits identified as
important in studies of previous projects. At the same time, analysts must take
extra care when incorporating benefits for which previous studies have not
established benchmark values.

Omissions and Incorrect Assumptions Frequently Lead to Inaccurate O&M
Cost Estimates

O&M cost estimates developed in preliminary phase analyses primarily serve to
support comparisons of different routes and train service alternatives, such as
different frequencies of service and number of station stops. However, preliminary
cost estimates are often misrepresented as the likely cost of HSIPR service
operations. Clear definition of the railroad route, the level and quality of train
service to be offered, and the standards—such as those set by safety and labor
regulations—that must be complied with are essential prerequisites for accurate
cost estimation.

In intermediate phase analyses, estimates often incorporate inaccurate assumptions
about the impact of standards and a lack of understanding about staffing needs.
Analysts frequently assume that costs to meet standards will be low, or that the
relevant authority will grant exemptions from standards or labor agreements.
Examples include the assumption that a single driver can operate a train and
                                                                                  13


operations still comply with labor agreements, or that a European train can meet
FRA safety standards without modifications. In their estimations of labor costs,
analysts often incorrectly analyze all labor costs as a single category rather than
develop separate estimates for staff with different competencies and
responsibilities. Analysts’ failure to understand different staff roles and functions
often leads to underestimation of staffing needs and the application of
inappropriate wage and overhead rates.

Frequently, analysts omit contingency allowances from intermediate phase cost
estimates. These omissions are inappropriate since intermediate cost estimates are
prepared in relatively short timeframes, on a top-down basis, and often rely on unit
costs from other HSIPR services or studies.

Final phase cost estimates should include considerable analysis of cost drivers and
unit costs to prevent continuations of omissions and applications of any incorrect
assumptions made in intermediate-phase analyses. Omissions with respect to
staffing needs tend to commonly occur. For example, expansion of on-board
services may increase fare revenues. However, if the number of customer service
staff is not also increased in line with the expanded services, analysts will likely
underestimate train crew operating costs. Analysts also often fail to verify that
discounts included in an estimate will be achievable in practice. For example,
analysts may underestimate energy costs if they assume that other trains can reuse
electricity returned to the system. Train service frequencies may prevent energy
reuse, or it may otherwise prove impractical to use the regenerated power.

Final phase analyses need to include well-developed, quantified risk assessments.
Such assessments include forecasts of the required contingency allowance size.
Analysts frequently over-simplify risk assessments, both in terms of risk
identification and quantification.


FRA’S GUIDANCE AND REQUIREMENTS FOR HSIPR GRANT
APPLICANTS ARE INADEQUATE TO ENSURE SOUND VIABILITY
ANALYSES

To date, FRA has established only minimal guidance and requirements for HSIPR
grant applicants on the information they must provide to FRA on project viability.
Even FRA’s most specific guidance fails to discuss key considerations.
Altogether, the guidance allows for wide variation in the level of detail and
methodologies used by grant applicants in the preparation of revenue forecasts,
benefits valuations, and cost estimates, and consequently, in the quality of project
viability analyses.
                                                                                                                   14


FRA’s guidance informs applicants to all of its HSIPR programs that the Agency
looks at the “quality and reasonableness of revenue and operating and
maintenance forecasts [and] the reasonableness of estimates for user and non-user
benefits.” 15 However, it contains no information on what constitutes sound
forecasts, valuations, and estimates. FRA provides its most extensive guidance in
the announcement of its second largest HSIPR funding program. That guidance
outlines a model service development plan (SDP) to “assist applicants/grantees in
fulfilling the objectives necessary to successfully complete each stage of project
development[,]” but explicitly states that applicants and grantees are not required
to follow the model. The outline indicates what would “optimally…be included in
an SDP.” It lists the major elements of revenue forecasts, operating cost estimates,
and user and non-user benefits, and provides a limited description of the
requirements for the elements of revenue forecasts and cost estimates. For
operating cost estimates, for example, the outline reads as follows:

            For each different cost area, the SDP should provide the basis for
            estimation (application of unit costs from industry peers or a detailed
            resource build-up approach) of operating expenses. The SDP should
            include documentation of key assumptions and provide back-up data
            on how unit costs and quantities and cost escalation factors were
            derived.

The section concludes with a list of “typical cost areas.” The same announcement
later indicates that operating cost estimates, along with the other viability analysis
components, will be “expanded and updated” as the project develops.

The announcement leaves much of the determination of what should be provided
up to the applicants and grantees. It does not, for example, discuss when the use of
assumptions would be reasonable, when unit costs rather than a “build-up”
approach would be appropriate, or any of the pitfalls commonly encountered in the
preparation of cost estimates. Furthermore, it provides no indication of what the
expansion or updating of operating costs at later project stages would entail. The
most specific guidance for revenue forecasts and benefits valuations similarly
allows for a wide range of interpretations.

The lack of clear, detailed standards in FRA’s HSIPR forecasting guidance allows
for viability analyses of widely varying quality. Analyses of varying quality, in
turn, make it difficult for FRA to be sure that it allocates HSIPR funds to the most
effective projects. Furthermore, poor quality forecasts make it difficult for FRA to
accurately assess whether projects will be viable or require substantial financial


15
     Federal Register: Vol. 75. No. 126, Thursday, July 1, 2010; and Vol. 76, No. 51, Wednesday, March 16, 2011.
                                                                                 15


support. Projects undertaken based on flawed forecasts can ultimately require far
greater financial infusions than their analyses predicted.

CONCLUSION

The Administration’s FY 2013 budget allocates $47 billion over six years for
further development of a HSIPR program. It is FRA’s responsibility to ensure that
HSIPR project plans are viable. The requirements of sound economic viability
analyses are highly complex and susceptible to bias and inaccuracy. FRA’s current
guidance and requirements for its HSIPR grant applicants do not provide a level of
detail sufficient to minimize bias and ensure accuracy in project viability
assessments. Furthermore, while it is impossible to eliminate all risk from HSIPR
projects, full articulation of known risks will facilitate FRA’s decision-making on
which projects to fund. Detailed guidance from FRA on the preparation of HSIPR
ridership and revenue forecasts, public benefits valuations, and operating cost
estimates could help ensure that Federal funds are invested in the projects with the
greatest chance of success. Such guidance would also be useful for States that
apply for these funds, since grant requirements assign responsibility for financial
shortfalls to them for the life of the grants.

RECOMMENDATIONS

We recommend that FRA:

1. Develop specific, detailed guidance for the preparation of HSIPR ridership and
   revenue forecasts, public benefits valuations, and operating cost estimates that
   reflects the key considerations identified in this report.

2. Establish specific requirements for ridership and revenue forecasts, public
   benefits valuations, and operating cost estimates for each level of project
   development provided by HSIPR grant applicants.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

We provided a draft of our report to FRA on February 17, 2012. We received
FRA’s response on March 14, 2012, which can be found in its entirety in the
appendix of this report. FRA fully concurred with our recommendations. Further,
FRA indicated that it will produce guidance for vetting by stakeholders and
appropriate technical experts by March 2013.
                                                                                 16


ACTIONS REQUIRED

We consider FRA’s planned actions and target date for meeting our
recommendations reasonable and therefore resolved but open pending completion
of the planned actions, subject to follow-up provisions in accordance with DOT
Order 8000.1C.

We appreciate the courtesies and cooperation of Federal Railroad Administration
representatives during this audit. If you have any questions concerning this report,
please call me at (202) 366-9970 or Betty Krier, Program Director, at (202) 366-
1422.
                                          #
cc:    Audit Liaison, OST, M-1
       Audit Liaison, FRA, RAD-43
                                                                               17




EXHIBIT A. SCOPE AND METHODOLOGY

We conducted our work from June 2010 through February 2012 in accordance
with generally accepted Government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective.

We initiated this audit to (1) identify key focus areas for analyses of HSIPR
project economic viability, and (2) assess FRA’s requirements and guidance for
HSIPR grant applicants on the information they must provide to FRA on project
viability.

To conduct our review, we worked closely with consultants at the firms of Steer
Davies Gleave and Charles River Associates. We relied on their technical
expertise in identifying considerations that are key to viability assessments. We
held 20 meetings with the consultants from July 2010 to April 2011 to ensure that
the research and supporting documentation they provided would address our audit
objectives. We engaged in an intensive and ongoing review of the technical
documents underlying this report throughout their development by the consultants,
in order to shape the technical information into accessible material.

Steer Davies Gleave and Charles River Associates conducted a review of financial
and economic forecasting practices for HSIPR projects in the U.S. and around the
world. In the U.S., they examined studies conducted for the officially designated
HSIPR corridors as well as selected other “unofficial” corridors. Internationally,
their review emphasized countries with experience in HSIPR operations, although
countries with mature development programs were also considered. They drew
upon this review, and their considerable experience and expertise, to produce
analyses of the issues and characteristics of the elements of revenue forecasting,
public benefits valuation, and operating cost estimation for HSIPR projects. For
example, the contractors established a framework to identify issues with travel
demand models, their various components and structure. This framework
facilitated identification of questionable methodological practices, unusual model
estimates, and other issues related to the revenue forecasting process. They
ultimately condensed these analyses into a set of documents on viability analysis
processes, which formed the basis for this report.




Exhibit A. Scope and Methodology
                                                                 18




EXHIBIT B. MAJOR CONTRIBUTORS TO THIS REPORT

Name                                    Title

Betty Krier                             Supervisory Economist/
                                        Program Director

T. Jerrod Sharpe                        Senior Economist

Kang Hua Cao                            Economist

Michael Day                             Economist

Susan Neill                             Writer/Editor




Exhibit B. Major Contributors to This Report
           APPENDIX. AGENCY COMMENTS                                                                                  19



                                                                             Memorandum
           U.S. Department of Transportation


           Federal Railroad Administration

   Date:   March 14, 2012                               Reply to Attn of:


Subject:   FRA Response to Office of Inspector General (OIG) Draft Report
           on Guidance for High-Speed Rail Project Viability Assessments

 From:     Joseph C. Szabo
           Administrator
           Federal Railroad Administration

   To:     Mitch Behm
           Assistant Inspector General for Rail, Maritime, and Economic Analysis

           The American Recovery and Reinvestment Act of 2009 (Recovery Act) rapidly
           transformed the Federal Railroad Administration (FRA) from an organization nearly
           entirely devoted to safety and safety oversight, to one with a significant grant making
           component. This required FRA to build the necessary grant making capabilities,
           including guidance, operations, and oversight with the unprecedented speed mandated by
           the Recovery Act. The massive extent of this undertaking combined with the short time
           frames of the Recovery Act required extraordinary action by FRA. We are proud to say
           that FRA met this challenge and fulfilled the statutory requirements necessary to get
           America’s High-Speed and Intercity Passenger Rail (HSIPR) program moving.

           With regard to the specific technical areas touched upon in this report, FRA provided
           guidance to grant applicants that was sufficient to meet applicable statutory requirements
           within the timeframe afforded by the Recovery Act and the fiscal year (FY) 2010
           appropriation. The Recovery Act and FY 2010 appropriations act accelerated the time
           frames of the Passenger Rail Improvement and Investment Act (PRIIA) and called for
           funds to be made available on the basis of interim guidance rather than a final rule. 1
           FRA issued Interim Guidance in June 2009, with updates provided in July 2010 and
           March 2011. This guidance provided direction to applicants on cost estimation, ridership
           and revenue forecasts, service development planning, public benefits assessment,
           engineering documentation, and other proposal elements. Given the newness of the
           Federal role in funding intercity passenger rail projects, and consistent with the early
           stage of the program’s development and the Congressionally-mandated time frames, the
           Interim Guidance allowed some flexibility in the methodologies used by applicants to
           develop their proposals, but required a specific set of basic information needed for FRA
           to make sound selection decisions.

           1
               See PRIIA, Pub. L. No. 110-432, § 301, 122 Stat. 4936 (2008); ARRA, Pub. L. No. 111-5, 123 Stat. 208 (2009);
                Consolidated Appropriations Act of 2010, Pub. L. No. 111-117, 123 Stat. 3056-57 (2009).


           Appendix. Agency Comments
                                                                                          20

FRA recognizes that as additional HSIPR funds become available in the future, it will be
important to provide further guidance in the areas of ridership/revenue projections,
public benefits assessments, and operating and maintenance cost estimates. The OIG
report will provide useful input for that process. Even as we implement the Recovery Act
and FY 2010-funded program, FRA has been working to refine its guidance related to
benefits and costs to provide clear and consistent criteria for our stakeholders and future
applicants. However, it is important to recognize that the primary beneficiary of this
additional guidance is future applicants competing for any additional funding that may
become available in the future. Because the vast majority of current grantees have
projects that are fully-funded through the final design and construction phase, this
guidance is not necessary for the successful delivery of these currently-funded HSIPR
projects. Except for the 3 percent of funds supporting only planning and
engineering/environmental activities, current grantees will not need to “justify additional
funding needs” in order to enter final design/construction or to complete their projects.

Recommendations and Responses

OIG Recommendation 1: Develop specific, detailed guidance for the preparation of
HSIPR ridership and revenue forecasts, public benefits valuations, and operating cost
estimates that reflects the key considerations identified in this report.

FRA Response: We concur. Our initial guidance document will focus on assessing
project costs and benefits. FRA will circulate this guidance for vetting by stakeholders
and appropriate technical experts by March 2013.

OIG Recommendation 2: Establish specific requirements for ridership and revenue
forecasts, public benefits valuations, and operating cost estimates for each level of project
development provided by HSIPR grant applicants.

FRA Response: We concur. As additional funding is made available for the HSIPR
program, FRA will ensure that the guidance described above is reflected in the
application preparation, review, and selection processes described in future Notices of
Funding Availability.




Appendix. Agency Comments
